SEMIANNUAL REPORT   OF THE   INSPECTOR GENERAL                                   FEDERAL COMMUNICATIONS
COMMISSION




TABLE OF CONTENTS


I.            INTRODUCTION....................................................................................... 1

II.           AUDITS ...................................................................................................... 3

III.          INVESTIGATIONS.................................................................................... 9

IV.           MANAGEMENT AND ADMINISTRATION ......................................... 12

V.            SPECIFIC REPORTING REQUIREMENTS OF SECTION 5(a)                              .......
              OF THE INSPECTOR GENERAL ACT ................................................... 14


ATTACHMENTS

A.            TABLE I: OIG AUDIT REPORTS WITH QUESTIONED COSTS....... 17

B.            TABLE II: OIG AUDIT REPORTS WITH RECOMMENDATIONS
              THAT FUNDS BE PUT TO BETTER USE ............................................. 18


INTRODUCTION
The Federal Communications Commission (FCC) is an independent regulatory agency
exercising authority delegated to it by Congress under the Communications Act of 1934, as
amended. As of March 1995 the FCC had 2,271 full-time equivalent employees (FTEs),
most of whom are in Washington, D.C. FCC Field Offices are located throughout the United
States.

The Chairman and four additional Commissioners are appointed by the President and
confirmed by the Senate. Reed E. Hundt has been the Chairman of the FCC since
November 1993. The four Commissioners are James H. Quello, Andrew C. Barrett,

_________________________________________________________________
OCTOBER 1994 - MARCH 1995                                                                                          PAGE 1
SEMIANNUAL REPORT   OF THE   INSPECTOR GENERAL               FEDERAL COMMUNICATIONS
COMMISSION


Rachelle B. Chong, and Susan P. Ness.

During the past year, the FCC launched the first-ever auctions of the public airwaves,
permitting the market, rather than lobbyists and Government regulators, to determine who
gets valuable wireless licenses. To date, the FCC has conducted four auctions, and the high
bids from those auctions total nearly $9 billion. This total is the equivalent of $35 per
United States citizen or about $100 per U.S. household. The most recent auction was the
biggest government auction in history and raised $7.7 billion.

Also during the past year, to bring the FCC in step with the Communications Revolution,
Chairman Hundt realigned the Commission's Bureaus to reflect the changed structure of the
nation's telecommunications industry. There are now five Bureaus which parallel the five
lanes of the information highway: Common Carrier (parallels wire); Wireless
Telecommunications (wireless); Mass Media (broadcast); Cable Services (cable); and
International (satellite). Three of these bureaus are new: Cable Services, Wireless
Telecommunications, and International.

A sixth Bureau, the Field Operations Bureau, was renamed the Compliance and Information
Bureau. The Bureau is responsible for the FCC Regional Offices, Field Offices, and
Monitoring Stations, and on February 24, 1995, the Bureau announced a significant
reorganization intended to reinvent, streamline, and refocus the Bureau. The reorganization
included closing three Field Offices and consolidating their operations into other offices,
converting another Field Office into a resident agent office, consolidating four regional
offices into two, and converting twelve monitoring stations from manned to remote
operations.

A description of and a rationale for the ongoing transformation of the FCC is contained in
the February 1, 1995, Report of the Special Counsel to the Commission on Reinventing
Government entitled "Creating a Federal Communications Commission for the Information
Age." The report also contains 35 legislative proposals intended to reduce regulatory
burdens on industry and streamline the FCC's processes.

The Office of Inspector General has dedicated itself to assisting the Commission as it
continues to improve its efficiency and effectiveness. The Inspector General reports directly
to the Chairman and to the Congress. The OIG is located in Room 752 in the FCC
headquarters building at 1919 M Street, N.W., Washington, D.C. 20554. The Office of
Inspector General (OIG) is staffed by the Inspector General and five other employees: three

_________________________________________________________________
OCTOBER 1994 - MARCH 1995                                                             PAGE 2
SEMIANNUAL REPORT   OF THE   INSPECTOR GENERAL                 FEDERAL COMMUNICATIONS
COMMISSION


auditors; an attorney-advisor who is also responsible for investigations; and a staff assistant.


This report includes the major accomplishments and general activities of the OIG during the
period October 1, 1994, through April 30, 1995, in accordance with Section 5 of the
Inspector General Act of 1978, as amended. 5 U.S.C. App. 3, § 5.


AUDITS

OVERVIEW
Three audit reports were issued by the Inspector General during this reporting period. In
other audit activity, OIG auditors monitored the FCC broadband auction, and worked with
computer security personnel to test the safeguards in place to protect the FCC computer
systems from unauthorized entry. OIG auditors also assisted management in its conversion
to an off-the-shelf, widely used financial system, the Federal Financial System, as
management prepares to go on-line on October 1, 1995.

SIGNIFICANT AUDITS
1.REPORT ON THE SPECIAL REVIEW OF THE REGIONAL NARROWBAND
     PERSONAL COMMUNICATION SERVICES (PCS) LICENSE AUCTION.

       The report was issued January 20, 1995.

On August 10, 1993, the Omnibus Budget Reconciliation Act of 1993 added section 309(j)
to the Communications Act of 1934, as amended. Section 309(j) gave the Federal
Communications Commission (FCC) express authority to employ competitive bidding
procedures to choose from among mutually exclusive applications for initial licenses.

This is the second special review report documenting OIG examination of the Commission's
license auctioning process. The first OIG special review report, dated September 22, 1994,
addressed short-form application processing as part of the Nationwide Narrowband PCS and
Interactive Video Data Service (IVDS) license auctions.

_________________________________________________________________
OCTOBER 1994 - MARCH 1995                                                                PAGE 3
SEMIANNUAL REPORT   OF THE   INSPECTOR GENERAL               FEDERAL COMMUNICATIONS
COMMISSION


A special review is meant to be a quick study of a process and, as such, is not conducted in
accordance with all professional auditing standards. A special review was conducted
because the Inspector General believed that management would benefit from expeditious
reporting of those areas of the auction process where improvement is needed. Such
reporting was particularly important given the pace with which the Commission is pursuing
the distribution of additional licenses through auction.

On August 26, 1994, the Commission announced, by Public Notice, an auction of thirty
regional licenses for narrowband PCS to begin on October 26, 1994. The auction was
subsequently held and the thirty licenses were auctioned for a total winning bid value of
$490,901,787.

The objective of this second special review was to evaluate the internal controls associated
with (1) upfront payment calculation and processing, (2) activity rule enforcement, and (3)
FCC Form 401 ("long-form application") processing for those businesses participating in the
regional narrowband PCS auctions conducted in October 1994. In general, the review
indicated that the auction was conducted in an efficient and effective manner. However,
the following were identified as areas where improvements in the auction process could be
made.

       1. Bidder Eligibility Reporting

The Commission did not publish information on activity rule waivers use by bidders during
the auction. The absence of this information had the potential to prevent bidders from
analyzing competitor bidding strategies in an accurate and timely fashion. Although there
are no indications that this condition adversely impacted the regional narrowband PCS
license auction results, the OIG believes that publishing activity rule waiver information
would be consistent with the conclusions the Commission reached in its Second Report and
Order regarding auction design and information availability during simultaneous multiple
round auctions.

       2. Long-Form Application Instructions

The OIG review indicated some inaccuracies in the instructions regarding the preparation of
FCC Form 401 ("long-form application"). The long-form application is the vehicle by
which successful bidders apply for a narrowband PCS license. Long-form applications are
required within ten business days after high bidders are announced by public notice.

_________________________________________________________________
OCTOBER 1994 - MARCH 1995                                                             PAGE 4
SEMIANNUAL REPORT   OF THE   INSPECTOR GENERAL                FEDERAL COMMUNICATIONS
COMMISSION


General instructions regarding requirements for long-form applications were provided in the
Public Notice, dated August 17, 1994, announcing the auction. Detailed instructions
regarding long-form application completion were provided in the Bidder's Information
Package.

The auditors found that several winning bidders (six applicants out of a total of nine)
submitted individual long-form applications for multiple licenses. In fact, several applicants
submitted single long-form applications for frequencies in each of the five markets. These
applicants were notified in writing by the Narrowband Commercial Radio Branch that
"further documentation" was required, and that a "complete application for each market and
frequency block" should be submitted. In addition, applicants were reminded that §24.11 of
the Commission's Rules states that "an applicant must file an application for an initial
authorization in each market and frequency block desired."

During the OIG examination of the applications, the auditors reviewed the instructions
provided to the applicants in the Public Notice announcing the auction, and in the Bidder's
Information Package providing detailed instructions on long-form application preparation.
The auditors noted that no mention is made in these sources of §24.11 of the Commission
Rules, or the rule's requirement that individual applications be submitted for "each market
and frequency block." In fact, the "sample" long-form application provided in the Bidder's
Information Package shows multiple markets and frequency blocks on the same long-form
application.

Both of the above areas were discussed with FCC auction personnel. With respect to the
first issue, the OIG was informed that the Commission intended to make activity rule waiver
information available in future auctions. During the Major Trading Area Broadband PCS
license auction, which began December 5, 1994, information about each bidder's maximum
eligibility and remaining waivers was made available along with round by round auction
results. The release of this information adequately addressed the first issue, and the
Inspector General recommended that the Commission continue to release such information
in future simultaneous multiple round auctions.

With respect to the second issue, the OIG was informed that steps were being taken to
improve the long-form instructions in future auctions. For example, a new bidder
information package has been developed which clarifies the requirement for individual
applications. In addition, a new form (Form 600) was developed to include filing
instructions which clearly indicate this requirement. The Inspector General concluded that

_________________________________________________________________
OCTOBER 1994 - MARCH 1995                                                              PAGE 5
SEMIANNUAL REPORT   OF THE   INSPECTOR GENERAL                FEDERAL COMMUNICATIONS
COMMISSION


these steps will adequately address this problem in future auctions




.

2.REPORT ON THE COMPLIANCE WITH, AND EFFECTIVENESS OF,
     REQUIREMENTS RELATED TO LIMITATION ON USE OF APPROPRIATED
     FUNDS TO INFLUENCE CERTAIN FEDERAL CONTRACTING AND
     FINANCIAL TRANSACTIONS.

       The report was issued March 31, 1995.

The Office of Inspector General (OIG) performed an audit to evaluate the compliance with,
and the effectiveness of, the requirements imposed by 31 U.S.C. § 1352 on the FCC and on
persons requesting and receiving Federal contracts from the FCC using appropriated funds.
31 U.S.C. § 1352 requires, among other things, that:

1. None of the funds appropriated by any Act may be expended by the recipient of a Federal
      contract to pay any person for influencing or attempting to influence an officer or
      employee of any agency, a Member of Congress, an officer or employee of Congress,
      or an employee of a Member of Congress in connection with the award, extension,
      continuation, renewal, amendment or modification of any Federal contract.

2. Each person who requests or receives a Federal contract in excess of $100,000 must
      disclose lobbying with other than appropriated funds.

3. The head of each agency must submit a semi-annual report to the Secretary of the Senate
      and the Clerk of the House of Representatives. These reports must include
      information with regard to any payments made and must be filed no later than May
      31 and November 30 of each year.

4. The Inspector General must prepare and submit to Congress each year an evaluation of
      the compliance by the agency with, and the effectiveness of, the requirements
      imposed on the agency and on persons requesting or receiving Federal contracts.


_________________________________________________________________
OCTOBER 1994 - MARCH 1995                                                              PAGE 6
SEMIANNUAL REPORT   OF THE   INSPECTOR GENERAL              FEDERAL COMMUNICATIONS
COMMISSION


The auditors made inquiries of key personnel to ascertain what controls and/or procedures
regarding 31 U.S.C. § 1352, and sections 52.203-11 and 52.203-12 of the Federal
Acquisition Regulation (FAR) were in place. Inquiries were also made to officials at OMB
on the certification and disclosure of payments. Auditors obtained copies of all FCC
contracts which exceeded $100,000. These were reviewed and analyzed to determine
whether required procedures were being followed.

The auditors determined that the Commission was in compliance with 31 U.S.C. § 1352, and
that the Commission established adequate controls to ensure certification and disclosure of
payments made to influence certain federal transactions. However, the auditors found that
the semi-annual report required to have been filed by November 30, 1994, had not been
filed. Responsible FCC officials were notified and took appropriate action to correct this
oversight.

In compliance with provisions of 31 U.S.C. § 1352, the OIG submitted to the Secretary of
the Senate and to the Clerk of the House of Representatives the required annual evaluation
of FCC compliance with the Act.


3.AUDIT OF THE ADVISORY COMMITTEE ON ADVANCED                               TELEVISION
     SERVICE.

       The report was issued December 19, 1994.

The Advisory Committee on Advanced Television Service was empaneled by the Federal
Communications Commission (FCC) on October 1, 1987, to develop and recommend
policies, standards, and regulations to facilitate the orderly and timely introduction of
advanced television services in the United States. The Committee is chartered in accordance
with the Federal Advisory Committee Act (FACA), and its parent committee is composed of
25 voting members, as well as an unspecified number of ex officio members, throughout
government and industry.

This Office of Inspector General audit was performed to provide an independent assessment
of the integrity of Committee funds. Audit emphasis was placed on evaluating compliance
with internal controls for handling deposits and ensuring that all disbursements were valid
and supportable. All cash receipts, bank charges and disbursements from the period of July
1, 1992, through November 30, 1994, were examined and traced back to monthly bank

_________________________________________________________________
OCTOBER 1994 - MARCH 1995                                                            PAGE 7
SEMIANNUAL REPORT   OF THE   INSPECTOR GENERAL                FEDERAL COMMUNICATIONS
COMMISSION


statements and journals maintained by the bookkeeper.

Results of the audit reflect that the internal controls established over the Committee's funds
were being properly administered. All cash receipts, interest accrued to the account, bank
charges, and disbursements were reconciled from the monthly bank statement to the
accounting journals. As of November 30, 1994, the monthly account statement from the
bank reflected a balance in the Committee's account which reconciled with figures
maintained by the Committee.


4.COMMISSION  ACTION  ON  OFFICE  OF   INSPECTOR GENERAL
     RECOMMENDATIONS REGARDING THE FREQUENCY COORDINATOR
     PROGRAM.

In the Communications Amendments Act of 1982, Congress provided the FCC with
guidelines to manage the spectrum for private land mobile services. Congress authorized the
use of non-Federal Government advisory coordinating committees (frequency coordinators)
for assigning frequencies to parties seeking to broadcast and receive using private land
mobile and fixed station equipment. Congress also encouraged the Commission to "develop
rules or procedures for monitoring the performance of coordinating committees."

In 1992 the OIG issued two audit reports which addressed deficiencies in the FCC's
monitorship of frequency coordinators. The two reports, entitled Audit Report on User Fees
for Frequency Coordinator Services and Audit Report on the User Satisfaction With
Frequency Coordinator Services, contained a total of thirteen audit recommendations. In
these reports, the OIG found that the FCC was neither monitoring and evaluating the service
provided by frequency coordinators to the public, nor examining the cost for providing that
service.

On September 29, 1993, in its Report on the Follow-up Audit of the Frequency Coordinator
Program, the OIG found that the FCC had not addressed ten of the thirteen original
recommendations contained in the prior audit reports. Accordingly, four additional
recommendations for corrective action were made.

On March 22, 1995, the Acting Inspector General received the 1994 Annual Report of
Private Land Mobile Frequency Coordinator Performance from the Chief of the newly
created Wireless Telecommunications Bureau. The annual report indicates that the

_________________________________________________________________
OCTOBER 1994 - MARCH 1995                                                              PAGE 8
SEMIANNUAL REPORT   OF THE   INSPECTOR GENERAL                FEDERAL COMMUNICATIONS
COMMISSION


Commission is now addressing the recommendations for corrective action made in the
earlier OIG audit reports. The FCC is now taking significant steps to ensure that private
citizens are afforded accurate and timely frequency coordination services at a reasonable
cost. For example, the report cites a reduction of 87% in the cost charged by the largest
frequency coordinator, the National Association of Business and Educational Radio, Inc.
(NABER), from $140 to $17 for processing an enhanced specialized mobile radio (ESMR)
license. Such a reduction is a direct result of the Commission's proactive approach of
obtaining and examining documentation from individual frequency coordinators whose
revenues exceed expense margins by over 10%. NABER was asked to submit plans for
reducing fees charged to their customers. In its response, NABER identified "ways in which
it intended to bring coordination fees more in line with its expenses."

The Land Mobile Branch in Gettysburg, Pennsylvania, undertook an eight week review of
Coordinator return rates in Fiscal Year (FY) 1994. The review was initiated in response to
an OIG recommendation, and was intended to insure that the coordinators were serving the
public in a responsible manner. A Public Notice was issued June 22, 1994, providing the
public with the results of the study, and the FCC subsequently requested each Frequency
Coordinator with an error rate over 10% to submit a plan for corrective action.

The Land Mobile Branch also initiated an evaluation of the frequency coordinators' speed of
service. The Commission's 1986 Report and Order required that 90% of in-service and
interservice coordination requests be processed within 20 workdays. The evaluation found
that a majority of coordinators met this processing standard. Most failures to meet the
standard were attributed to delays caused by unusual processing fluctuations.


INVESTIGATIONS


OVERVIEW
Investigative matters pursued by this office are generally initiated as a result of complaints
alleging fraud, waste, abuse, corruption or mismanagement by FCC employees, or affecting
the programs or operations of the Commission. Upon receipt of a complaint which alleges
an administrative or criminal violation, the OIG usually conducts a preliminary inquiry to


_________________________________________________________________
OCTOBER 1994 - MARCH 1995                                                              PAGE 9
SEMIANNUAL REPORT   OF THE   INSPECTOR GENERAL                FEDERAL COMMUNICATIONS
COMMISSION


determine if an investigation is warranted. Investigations may involve possible violations of
regulations regarding employee responsibilities and conduct, Federal criminal law, and other
regulations and statutes pertaining to the activities of Commission employees. Investigative
findings may lead to criminal prosecution, civil prosecution, or administrative action.

INVESTIGATIVE ACTIVITY

During this reporting period, the OIG received thirty-three complaints or requests for
assistance. As a result, the office opened four investigations, two of which have been closed
and two of which are still pending. The two open investigations involve matters referred to
the U.S. Department of Justice: one to the Public Integrity Section of the Criminal Division,
and one to a United States Attorney's Office. Seven preliminary inquiries were conducted to
determine if investigations should be opened, and five of these were closed without initiating
formal investigations. Two preliminary inquiries remain pending, and one preliminary
inquiry pending from the previous reporting period was closed without initiating a formal
investigation.

Six matters were referred to other FCC components, and one was referred to another Office
of Inspector General. The OIG responded to five requests for assistance from other
investigative organizations, and no action was appropriate with respect to ten complaints
received in the OIG.

       The following investigations were closed:

(1)At the request of a senior management official, the OIG investigated an allegation of
       misuse of an official vehicle by an employee. Using surveillance techniques, the
       OIG corroborated the allegations and recommended administrative action. The
       recommendation was followed, and administrative action was taken against the
       employee.

(2)A confidential source reported conversion and misuse of government property by non-
      employees. An OIG investigation corroborated the allegations. The results of the
      investigation were reported to management, and the investigation was closed after
      appropriate corrective action was taken or planned.

Two investigations opened during the reporting period were referred to the U.S. Department
of Justice pursuant to section 4(d) of the Inspector General Act, and the OIG is continuing to

_________________________________________________________________
OCTOBER 1994 - MARCH 1995                                                              PAGE 10
SEMIANNUAL REPORT   OF THE   INSPECTOR GENERAL               FEDERAL COMMUNICATIONS
COMMISSION


investigate the possible violations of Federal criminal law. The first involves an alleged
conflict of interest by a former FCC employee, and the second involves the possible forgery
of official FCC records by a non-employee.

Preliminary inquiries conducted with respect to six complaints determined that formal
investigations were not warranted. A complaint that employees in several FCC Field
Offices had taken improper enforcement action against certain amateur radio operators was
closed after a preliminary inquiry found that the complaint was based upon inaccurate
information. A complaint, received during the last reporting period, that two FCC
employees had improperly denied licenses and taken other actions against an applicant was
closed after the preliminary inquiry determined that the two employees had acted in
accordance with applicable statutes and regulations.

Preliminary inquiries were conducted based on separate complaints that the FCC had
improperly approved the transfer of radio station licenses. No improprieties in the handling
of either matter were disclosed and no further investigation was conducted. A complaint by
a subcontractor in an FCC contract regarding possible wrongdoing by the prime contractor
and FCC employees was determined to involve only a contractual dispute between the two
contractors. A complaint concerning the hiring of a consultant in one of the Bureaus was
resolved when a preliminary inquiry indicated no irregularities in the personnel action.

Two preliminary inquiries remain open. One involves an allegation of improper conduct by
an FCC employee, and the other concerns an allegation of mismanagement in an FCC
program.

Three complaints were referred to the Common Carrier Bureau. Other complaints were
referred to the Compliance and Information Bureau, the Office of General Counsel, and the
Acting Secretary of the Commission. A complaint was referred to the Office of Inspector
General at the Department of Health and Human Services. In addition, the Office of
Inspector General responded to inquiries or requests for assistance from the Federal Bureau
of Investigation, the U.S. Postal Inspection Service, and the Office of Inspector General
from the U.S. Department of Agriculture.

During the reporting period the Office of Inspector General, in cooperation with the Office
of Managing Director, undertook a review of the FCC's workers' compensation program to
identify possibly fraudulent claims. This review included consulting with personnel in the
Office of Inspector General at the U.S. Department of Labor with expertise in workers'

_________________________________________________________________
OCTOBER 1994 - MARCH 1995                                                             PAGE 11
SEMIANNUAL REPORT   OF THE   INSPECTOR GENERAL               FEDERAL COMMUNICATIONS
COMMISSION


compensation fraud cases. The Office of Inspector General will continue to work with FCC
management to insure the integrity of this program.

The OIG also submitted for comment to the Office of General Counsel a recommendation
that Section 709 of Title 18, U.S.C., be amended to protect the name of the FCC from being
used to defraud investors. The statute protects a number of Federal agency names from
being used fraudulently in advertisements to suggest or imply endorsement by a Federal
agency. FCC programs involving lotteries and auctions are increasingly attracting scam
artists and con men who use telemarketing and other promotions to lure unwary investors
into fraudulent schemes, most notably those involving wireless cable. It is hoped that abuses
of this sort which involve the false use of the term "FCC" in advertisements or solicitations
can be quickly eliminated by utilizing the injunctive remedy provided by 18 U.S.C. § 709.




MANAGEMENT AND ADMINISTRATION

The Office of Inspector General at the FCC has undergone significant change since the last
Semiannual Report. Former Inspector General James Warwick, who retired from Federal
service on November 11, 1994, succumbed to a long illness on April 4, 1995, in Seattle,
Washington. Mr. Warwick had been the FCC Inspector General from 1989 until his
retirement in 1994.

H. Walker Feaster III was appointed Acting Inspector General on November 14, 1994. Mr.
Feaster has served the Commission since 1974 in various positions within the Office of
Managing Director and within the former Private Radio Bureau. Since 1990 he served as
the Associate Managing Director for Program Analysis.

In October 1994 Stephanie Dunscomb joined the OIG audit staff. Ms. Dunscomb was an
auditor in the OIG of the U.S. Department of Transportation from June 1992 until she
transferred to the FCC on October 3, 1994. In April 1995, the Counsel to the Inspector
General and Director of Investigations, Robert Andary, accepted a position as Inspector
General of the Federal Labor Relations Authority, effective May 8, 1995. Mr. Andary has
served the OIG since May 1992.

The Acting Inspector General has completed a draft strategic plan to ensure effective audit

_________________________________________________________________
OCTOBER 1994 - MARCH 1995                                                             PAGE 12
SEMIANNUAL REPORT   OF THE   INSPECTOR GENERAL                 FEDERAL COMMUNICATIONS
COMMISSION


coverage of the Commission's programs and operations through September 1999. In
February 1995 the Acting Inspector General circulated the draft strategic plan to the
Chairman and the Commissioners, and to the Chiefs of all the FCC's Bureaus and Offices.
The OIG is currently in the process of preparing its final strategic plan.

In the strategic plan, the OIG attempts to assess and describe the risks and problems facing
the FCC in fulfilling its mission, and to identify and select the audit strategies and
approaches for addressing and helping to resolve those risks and problems. Specific FCC
programs and operations are identified, based upon their nature and complexity, for review
by the FCC Office of Inspector General. The objective of this review will be to determine
whether the programs and operations are vulnerable to waste, fraud, abuse, and
mismanagement; whether they are efficient, effective, and economical; and whether
programmatic and operational goals and objectives are being achieved.

The plan was designed to serve as the basis for OIG activities for Fiscal Years 1995, 1996,
1997, 1998, and 1999. The OIG will update and revise the plan in January 1997. The
listings and priorities in this plan will also contribute to improvements in the ongoing
development of the OIG audit universe, and will be the basis for future OIG annual audit
plans. Therefore, this strategic plan will assist the OIG to better address the audit
requirements of its customers.

On March 1, 1995, the House Appropriations Committee's Subcommittee on the
Departments of Commerce, Justice, and State, the Judiciary, and Related Agencies, held a
hearing in room H-310 of the Capitol. The hearing was titled "Review of Department and
Agency Inspectors General Recommendations for Budget Savings." The Inspectors General
of the thirteen agencies under the Subcommittee's jurisdiction were invited to testify so that
the Subcommittee could obtain their recommendations on ways to make budgetary savings
and spending reductions in their agencies, and to find ways to reduce expenditures through
increased efficiency. The Subcommittee hoped to hear some specific recommendations that
the Subcommittee could followup on when the agencies testified about their budget requests
in the coming weeks.

The Acting Inspector General testified before the Subcommittee and submitted a
comprehensive written statement. He described OIG activities for FY 1994, and current
activities in FY 1995. He also stressed his office's strategic planning process, and identified
those programs and operations which are priorities for future audit activity. The Acting
Inspector General responded to questions from the Chairman concerning the FCC report by

_________________________________________________________________
OCTOBER 1994 - MARCH 1995                                                               PAGE 13
SEMIANNUAL REPORT   OF THE   INSPECTOR GENERAL               FEDERAL COMMUNICATIONS
COMMISSION


the Special Counsel for Reinventing Government, and was asked to identify specific cost
savings from the various legislative proposals contained therein. The Acting Inspector
General also responded to questions regarding the ongoing spectrum auctions.

The inspection program begun during the last reporting period, which was designed to
provide the Commission with an independent evaluation of the operations of the FCC's 35
field offices, has been suspended pending the completion of the Compliance and
Information Bureau's reorganization, described in part I of this report.




SPECIFIC REPORTING REQUIREMENTS OF SECTION 5(a) OF
THE INSPECTOR GENERAL ACT


       The following summarizes the Office of Inspector General response to the twelve
specific reporting requirements set forth in Section 5(a) of the Inspector General Act of
1978, as amended.

1. A description of significant problems, abuses, and deficiencies relating to the
administration of programs and operations of such establishment disclosed by such
activities during the reporting period.

       No such problems, abuses, or deficiencies were disclosed during the reporting period.

2. A description of the recommendations for corrective action made by the Office during the
reporting period with respect to significant problems, abuses, or deficiencies identified
pursuant to paragraph (1).

       No recommendations were made. See the response to paragraph (1).

3. An identification of each significant recommendation described in previous semiannual
reports on which corrective action has not been completed.

       In an audit report issued September 30, 1994, entitled "Report on Internal Controls

_________________________________________________________________
OCTOBER 1994 - MARCH 1995                                                             PAGE 14
SEMIANNUAL REPORT   OF THE   INSPECTOR GENERAL               FEDERAL COMMUNICATIONS
COMMISSION


and Compliance related to the General Ledger and Treasury Financial Reports for the Fiscal
Year ended September 30, 1993," OIG auditors concluded that the FCC is in non-
compliance with GAO financial accounting and reporting requirements.

      In another audit report issued September 30, 1994, entitled "Report on Internal
Controls and Compliance Related to the Budget Operations for the Fiscal Year ended
September 30, 1993," OIG auditors reported that FCC budget execution, internal control,
and reporting system procedures do not conform to the requirements and regulations for
Federal agencies and commissions.

       Both audit reports were fully summarized in the last Semiannual Report. The FCC is
now in the process of converting to a new accounting system which is designed to address
the findings of financial and accounting reporting deficiencies and the related
recommendations made by the Inspector General in these audit reports. The conversion to
the new accounting system will be implemented by and effective on October 1, 1995.

4. A summary of matters referred to prosecutive authorities and the prosecutions and
convictions which have resulted.

       Two investigations opened during the reporting period were referred to the U.S.
Department of Justice pursuant to section 4(d) of the Inspector General Act. The first
involves an alleged conflict of interest by a former FCC employee, and the second involves
the possible forgery of official FCC records by a non-employee. Both investigations are
ongoing; therefore, prosecution has not been initiated in either case and no convictions have
resulted.

5.     A summary of each report made to the head of the establishment under section
(6)(b)(2) during the reporting period.

       No report was made to the Chairman of the FCC under section (6)(b)(2) during the
reporting period.

6. A listing, subdivided according to subject matter, of each audit report issued by the
Office during the reporting period, and for each audit report, where applicable, the total
dollar value of questioned costs (including a separate category for the dollar value of
unsupported costs) and the dollar value of recommendations that funds be put to better use.


_________________________________________________________________
OCTOBER 1994 - MARCH 1995                                                             PAGE 15
SEMIANNUAL REPORT   OF THE   INSPECTOR GENERAL                 FEDERAL COMMUNICATIONS
COMMISSION


       Each audit report issued during the reporting period is listed according to subject
matter and described in part III, above.

7. A summary of each particularly significant report.

       Each audit report issued during the reporting period is summarized in part III, above.

8. Statistical tables showing the total number of audit reports with questioned costs and the
total dollar value of questioned costs.

       The required statistical table can be found at Attachment A to this report.

9. Statistical tables showing the total number of audit reports with recommendations that
funds be put to better use and the dollar value of such recommendations.

       The required statistical table can be found at Attachment B to this report.

10. A summary of each audit report issued before the commencement of the reporting
period for which no management decision has been made by the end of the reporting period
(including the date and title of each such report), an explanation of the reasons such
management decision has not been made, and a statement concerning the desired timetable
for achieving a management decision on each such report.

       No management decisions fall within this category.

11. A description and explanation of the reasons for any significant revised management
decision made during the reporting period.

       No management decisions fall within this category.

12. Information concerning any significant management decision with which the Inspector
General is in disagreement.

       No management decisions fall within this category.




_________________________________________________________________
OCTOBER 1994 - MARCH 1995                                                               PAGE 16
